DOE F 1325.8
(08-93)

United States Government                                                           Department of Energy


Memorandum
        DATE:    March 8, 2011                                         Audit Report Number: OAS-L-11-03
    REPLY TO
    ATTN OF:     IG-32 (A10LV007)
     SUBJECT:    Report on "Audit of National Security Technologies, LLC Internal Audit Function"
           TO:   Manager, Nevada Site Office

                 INTRODUCTION AND OBJECTIVE

                 National Security Technologies, LLC (NSTec), has managed and operated the Nevada
                 National Security Site since July 1, 2006, for the National Nuclear Security
                 Administration's (NNSA) Nevada Site Office. NSTec is a joint venture between
                 Northrop Grumman Corporation (Northrop Grumman), AECOM, CH2M Hill, and
                 Nuclear Fuel Services. The contract requires NSTec to establish and maintain an
                 independent internal audit function and to develop an Internal Audit Implementation
                 Design that describes the audit organization, lines of reporting, oversight responsibilities,
                 and auditing standards to be followed.

                 To help ensure that only allowable costs are claimed by Department of Energy's
                 (Department) management and operating contractors, the Office of Inspector General, the
                 Department's Office of Procurement and Assistance Management, and contractors
                 implemented a Cooperative Audit Strategy. This strategy relies on the contractors'
                 internal audit function to provide audit coverage of the allowability of incurred costs
                 claimed by contractors. It requires that contractors structure their organizations so that
                 the internal audit manager reports functionally to the Board of Directors (Board), audit
                 committee or equivalent corporate independent governing body. The strategy's success
                 depends on the organizational placement of the internal audit department and the internal
                 audit function's adherence to the audit standards established by the International
                 Standards for the Professional Practice of Internal Auditing (Standards) as promulgated
                 by the Institute of Internal Auditors (IIA).

                 Because the role of contractor internal audit departments is critical to the success of the
                 Cooperative Audit Strategy, we performed this audit to determine whether audits
                 conducted by the NSTec Internal Audit Department (Internal Audit) during Fiscal Years
                 (FY) 2008 and 2009 met both quality and professional auditing standards.

                 CONCLUSIONS AND OBSERVATIONS

                 Although we found that NSTec Internal Audit generally met IIA Standards for the seven
                 audits we reviewed, we identified a number of exceptions in one audit that resulted in that
                 audit not meeting quality and professional standards. Specifically, we identified
instances in which Internal Audit had not ensured that relevant audit work supported
audit conclusions and results. Further, although Standards require that the Internal Audit
Manager communicate directly with the Board, NSTec's Internal Audit Manager did not
have direct contact with the Board. We also found that, during FYs 2008 and 2009, the
Audit Committee Chairman (Chairman) was not independent of company management
since he was also NSTec's Treasurer responsible for management of the company's bank
accounts. The Audit Committee Handbook, as referenced by the IIA, states that audit
committee members consist of outside members or independent directors.

Internal Audit had not always met IIA Standards, in part, because it lacked a quality
assurance and improvement program. Specifically, a 2009 NSTec Internal Audit Peer
Review found that Internal Audit had not conformed to the IIA Standard for a quality
assurance and improvement program because it had not established a formal process to
monitor and periodically assess the overall effectiveness of the audit quality. In response
to Peer Review findings, Internal Audit began monitoring ongoing performance, and in
the first quarter of FY 2010, began performing self-assessments.

On the matter of organizational placement, we were told by the Internal Audit Manager
that he was not invited to Board meetings because he reports to the Audit Committee.
Finally, we noted that, in May 2010, NSTec appointed a new Chairman who was not
involved in the day-to-day management of the company.

The audit quality exceptions that we identified were isolated and NSTec officials told us
that they have acted to improve both the quality and independence of its internal audit
organization since the time the audit in question was completed. To ensure these actions
are completely implemented, we make several suggestions to address the issues identified
in this report.

                                      Audit Support

Contrary to the Standards' requirement that relevant audit work support conclusions and
results, we found that changes made in the re-issuance of a 2008 Internal Audit report
were not fully supported. Specifically, Internal Audit issued a report entitled Livermore
Operations Charging Practices, in December 2007, that identified (1) approximately
$103,000 in charges to an inappropriate project account, and, (2) an unsupported
accounting adjustment of $35,000. The workpapers supporting the audit indicated that
NSTec's Livermore Operations Division had performed work on a cost reimbursement
basis for Livermore National Laboratory and had overcharged the project account by
$103,000. Internal Audit also reported that it was unable to verify the accuracy of a
$35,000 accounting adjustment to reallocate other mischarges (self-identified by
management) to Livermore projects. Subsequently, Internal Audit re-issued the report in
April 2008 but did not fully include either of the above issues. Our review showed that,
although its workpapers provided support for the original issues, Internal Audit's
workpapers did not explain the reason for not fully disclosing these issues in the re-issued
report.




                                     2
Specifically, we found that the report was re-issued after the Audit Committee Chairman
had auditors from Northrop Grumman's parent company review the internal auditors'
work. The Chairman requested the assistance of the Northrop Grumman auditors
because the original report had been issued without management's comments. Based on
the Northrop Grumman review, NSTec Internal Audit re-issued the report that identified
approximately $89,000 of the $103,000 originally reported and did not discuss the
$35,000 accounting adjustment. According to Internal Audit, the Northrop Grumman
auditor assisted in preparing the re-issued report, but it was signed by the then Internal
Audit Manager and the Audit Committee Chairman.

Our review found that the Internal Audit workpapers did not provide a rationale for the
reduction in mischarges or support the revised total of mischarges, and did not contain
additional support for the $35,000 accounting adjustment. Regarding changes in the re-
issued report, the Northrop Grumman auditor that prepared the re-issued report:

    •   Explained that NSTec Internal Audit did not have access to the entire history of
        events that led to the reduction in the identified mischarge amount. The
        Northrop Grumman auditor also stated that management's review supported the
        lower amount of $89,000. However, the auditor acknowledged there was no
        support for the revised amount in the workpapers or a reconciliation to support
        the $14,000 reduction in reported mischarges; and,

    •   Did not recall why the $35,000 accounting adjustment issue was not included in
        the revised report. Based on our review of the workpapers, we concluded that
        the Northrop Grumman auditor had not developed support for eliminating the
        observation from the re-issued report.

We also determined that when Internal Audit originally reported on the matter it had not
correctly calculated the $35,000 in mischarges identified in the initial report.
Specifically, Internal Audit had not added the overhead costs to the mischarged $35,000
identified by management. We were unable to determine the amount of overhead costs
that should have been added to the mischarged costs. The Department's Accounting
Handbook, Chapter 15, Cost Accounting, requires that the proper allocation of overhead
costs be included when determining a product's costs.

Finally, while Internal Audit issued the initial report stating that it complied with audit
standards, the revised report did not cite compliance with any audit standards. We were
unable to ascertain why the report did not cite any standards. The Department's
Cooperative Audit Strategy requires that audits meet, at a minimum, the Standards.

                              Communication Requirements

Although not associated with the prior reporting problems, we found that the current
Internal Audit Manager is not invited to and does not attend or participate in senior
management or NSTec's Board of Managers (NSTec's equivalent to a Board of Directors)
meetings. IIA Standards require that the Internal Audit Manager communicate and


                                      3
interact directly with the Board. According to the Cooperative Audit Strategy, direct
communication occurs, in part, when the Internal Audit Manager regularly attends and
participates in meetings. The Internal Audit Manager further stated that he has not
requested to attend the senior management meetings because his position is not
considered senior staff. Although the Internal Audit Manager told us that he is briefed by
NSTec's Chief Operating Officer on the senior management meetings and has access to
the minutes and presentations of meetings, we concluded that the Internal Audit
Manager's inability to attend senior management meetings limits his opportunity to be
apprised of strategic business and operational developments, and to raise high-level risks
or control issues at an early stage.

                                       Independence

According to The Audit Committee Handbook, as referenced by the IIA, audit committee
members should consist of outside or independent directors. We reference the handbook
as a best practice to help engender a high degree of integrity in the overall audit process.
However, during FYs 2008 and 2009, we identified an independence issue with the
Chairman, who was also NSTec's Treasurer during that time. As Treasurer, the
Chairman maintained primary signatory authority and overall responsibility for all of
NSTec's bank accounts. Accordingly, we did not consider the Audit Committee
Chairman an outside or independent director because he was directly involved in
managing the corporation. While we did not consider the Chairman independent, we are
not aware of any improper transactions the Chairman made while serving as NSTec's
Treasurer. In May 2010, a new Chairman was appointed who was not involved in any
day-to-day NSTec operations.

                                    Quality Assurance

Internal Audit had not always met the IIA quality standard, in part, because it lacked a
quality assurance and improvement program. IIA Standards require that NSTec Internal
Audit have a quality assurance and improvement program. We noted that an independent
2009 NSTec Internal Audit Peer Review, covering FYs 2004 through 2008, found that
Internal Audit had not conformed to the Standard for a quality assurance and
improvement program. The peer review team reported that NSTec had not established a
formal process to monitor and periodically assess the overall effectiveness of the audit
quality. For example, Internal Audit had not established a formal process to monitor
ongoing performance of the internal audit activity, and had not performed periodic
reviews through self-assessments. The Internal Audit Manager stated that his
predecessors believed that sending out client surveys after each audit was sufficient to
constitute a quality assurance program. As a result of the peer review, Internal Audit
instituted a quality assurance and improvement program. In June 2009, Internal Audit
began monitoring ongoing performance, and in the first quarter of FY 2010 began
performing self-assessments.




                                      4
                                    Suggested Actions

We noted that the NNSA Service Center's Office of Field Financial Management
(OFFM) recently issued a report in September 2010 on NSTec's Internal Audit Function.
The objective of the review was to determine whether NSTec Internal Audit met both
quality and professional auditing standards. OFFM reviewed four audits that were not
included in our review. OFFM identified no significant weaknesses and concluded that
Internal Audit met both quality and professional auditing standards.

Given that our findings appear to relate to isolated exceptions, the recently completed
NNSA review confirmed that internal audits met auditing standards, and actions were
taken by NSTec to improve internal audit quality, we are not making any formal
recommendations. However, we suggest that the Nevada Site Office Manager:

   •   Determine whether the $35,000 in mischarges identified in the original NSTec
       Livermore Operations Charging Practices report were appropriately managed;
       and,

   •   Ensure that the NSTec Internal Audit Manager has sufficient interaction and
       participation with senior management and the Board of Managers to carry out his
       responsibilities.

Since no recommendations are being made in this report, a formal response is not
required. We appreciate the cooperation of your staff during the audit.




                                      David Sedillo, Director
                                      NNSA and Science Audits Division
                                      Office of Inspector General

Attachment

cc: Director, Office of Internal Controls, NA-66
    Assistant Director, Office of Risk Management, CF-80
    Team Leader, Office of Risk Management, CF-80
    Audit Resolution Specialist, Office of Risk Management, CF-80
    Director, Office of Field Financial Management, NZ
    Audit Liaison, Nevada Site Office




                                     5
                                                                                      Attachment


SCOPE AND METHODOLOGY

We performed the audit between October 2009 and March 2010, and between September 2010
and February 2011. We conducted our work at the Nevada Site Office and National Security
Technologies, LLC (NSTec) offices in Las Vegas, Nevada.

To accomplish the audit objective, we reviewed Department of Energy (Department) guidance
and requirements for contractor internal audit functions as well as applicable standards for the
professional practice of internal auditing. We interviewed key personnel at the Department,
NSTec, and Northrop Grumman Corporation; reviewed 7 of 39 NSTec Internal Audit reports, the
associated workpapers, and supporting documentation; and, obtained information from selected
Department contractor's internal audit departments regarding their participation in senior
management and board level meetings.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives. Because our review was limited,
it would not necessarily have disclosed all internal control deficiencies that may have existed at
the time of our audit. We also assessed performance measures in accordance with the
Government Performance and Results Act of 1993 and found that the Department had
established performance measures related to internal audit activities. We did not rely on
computer-processed data to satisfy our audit objective.

Management waived an exit conference.




                                                6
                                                                    IG Report No. OAS-L-11-03

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Felicia Jones at (202) 253-2162.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                       http://www.ig.energy.gov

      Your comments would be appreciated and can be provided on the Customer Response Form.
